THE SMALL BUSINESS ADMINISTRATION’S 

 FISCAL YEAR 2008 IMPROPER PAYMENT

  RATE FOR THE 7(A) GUARANTY LOAN 

              PROGRAM 




              Report Number: 9-16 

            Date Issued: July 10, 2009 





                 Prepared by the 

           Office of Inspector General 

       U. S. Small Business Administration 

            U.S.
            U.S. Sm
                 Small
                    all Business
                        Business Administration
            Office Inspector
                                 Administration
                   Inspector General
                             General               Memorandum
    To:    Ana M. Ma                                                 Date:   July 10, 2009
           Chief of Staff

           Eric R. Zarnikow
           Associate Administrator, Office of Capital Access

           Jonathan I. Carver
           Acting Chief Financial Officer

  From:    Debra S. Ritt
           Assistant Inspector General for Auditing

Subject:   Final Report on the Small Business Administration’s Fiscal Year 2008 Improper
           Payment Rate for the 7(a) Guaranty Loan Program
           Report No. 9-16

           This report summarizes the results of our audit of the Small Business Administration’s
           (SBA) Fiscal Year (FY) 2008 improper payment rate for the 7(a) Guaranty Loan
           Program (7(a) program). The Improper Payments Information Act (IPIA) of 2002
           requires Federal agencies to review their programs and activities annually, identify
           programs that may be susceptible to significant improper payments, estimate amounts
           improperly paid, and report on the amounts of improper payments and actions to
           reduce them.

           Since implementation of the Act, SBA has reported a low improper payment rate for
           the 7(a) program. However, because several recent OIG audits uncovered a significant
           number of improper 7(a) guaranty loan purchases, we initiated the audit to determine
           (1) whether SBA’s FY 2008 estimate of the improper payment rate for the 7(a)
           program was accurate, (2) if the estimate was not accurate, the reasons why, and (3) if
           recovery goals for FY 2007 and FY 2008 were met.

           To assess the accuracy of SBA’s FY 2008 improper payment review process, we
           compared the Agency’s review methodology with Office of Management and Budget
           (OMB) guidelines contained in Appendix C of OMB Circular A-123. These
           guidelines, which were published in 2006, provide agencies with specific instructions
           for estimating and reporting the rate of improper payments.
                                                                                    2



Additionally, we consulted with OMB officials to determine how the improper
payment definition specifically applies to the 7(a) program to determine whether
SBA had applied the definition correctly. We also interviewed Office of Capital
Access (OCA) officials, including those from the Office of Financial Program
Operations (OFPO) and the Office of Financial Assistance (OFA), regarding their
assessment and review approaches. In addition, we interviewed officials from the
Office of the Chief Financial Officer (OCFO). Our scope and methodology is
provided in Appendix I.

We independently validated SBA’s estimate of improper payments by reviewing a
statistical sample of 30 of the 186 loan guaranties purchased between April
1, 2007 and March 31, 2008 that SBA had reviewed, to determine whether these
loans met SBA’s origination, servicing, and/or liquidation requirements. Our
sample included 10 regular 7(a), 1 17 SBAExpress, and 3 Community Express
loans. Based on our review results, consult from OMB, and assistance from a
statistician, we developed an estimate of improper payments for the 7(a) program.
Our sampling methodology is explained in Appendix II.

We also reviewed seven additional loans for which OFA had overturned the
improper payment decisions to determine whether these decisions were
appropriate. Finally, we assessed SBA’s improper payment recovery efforts for
FY 2007 and FY 2008. We conducted the audit between August 2008 and March
2009 in accordance with Government Auditing Standards prescribed by the
Comptroller General of the United States.

BACKGROUND

The IPIA was enacted to enhance the integrity of the Federal government’s
payments and the efficiency of its programs. This legislation, in conjunction with
implementing guidance from OMB Circular A-123, requires executive branch
agency heads to review their programs and activities annually, identify those that
may be susceptible to significant improper payments, estimate amounts
improperly paid, and report on the amounts of improper payments and actions to
reduce them.

An improper payment is defined by the IPIA as any payment that should not have
been made (including paying a guaranty for a loan made to an ineligible recipient),
or that was made in an incorrect amount (including overpayments and
underpayments) under statutory, contractual, administrative, or other legally
applicable requirements. Under SBA’s guaranty loan programs, improper
payments may include SBA’s payment of guaranties (known as guaranty

1
    These included Preferred Lender Program (PLP) and General Program (GP) loans.
                                                                                                               3



purchases) that are based on incomplete, inaccurate, or fraudulent information.
They may also include duplicate payments and payments in the incorrect amount.
Erroneous payments exceeding both 2.5 percent of program payments and $10
million are considered “significant.”

In 2002, OMB identified SBA’s 7(a) Guaranty Loan Program, which provides
guaranteed loans to small businesses, as susceptible to significant improper
payments. This program includes SBA guaranteed loans provided under regular
7(a), SBAExpress, and Community Express procedures. In FY 2003, SBA first
reported an improper payment rate for the 7(a) program, which it determined was
insignificant. Since FY 2003, SBA has reported an improper payment rate for the
program ranging from 0.43 to 1.56 percent. Most recently, in the Agency’s FY
2008 Performance and Accountability Report, SBA estimated the improper
payment rate for the 7(a) program to be 0.53 percent, or $6.5 million, 2 of the FY
2008 program outlays of $1.2 billion. Although the reported rate was
insignificant, the Agency developed a corrective action plan.

Several recent OIG audit reports of the 7(a) program have identified a significant
number of improper guaranty purchases, causing us to question whether the rate of
improper payments reported for the program was accurate. These improper
purchases occurred because SBA loan officers did not review all relevant
documentation related to borrower repayment ability, creditworthiness, eligibility,
use of proceeds, equity injection, collateral liquidation, and other SBA
requirements to ensure lender compliance. For example:

      	 In December 2006, we reported that SBA purchased approximately
         $128 million to $130.6 million in SBAExpress and Community Express
         loan guaranties without the required documentation. 3

      	 In May 2007, we reported that SBA purchased approximately $36 million
         in 7(a) loan guaranties without obtaining or analyzing documentation to
         assess whether lenders originated, serviced, and/or liquidated loans in
         accordance with SBA requirements. 4

      	 In a January 2009 report on the liquidation process at the National Guaranty
         Purchase Center, we reported that SBA made at least $23 million in
         improper payments on loans charged off between October 1, 2005, and


2
    This amount is overstated since the estimate came from a different universe it was applied against.
3
    OIG Report 7-08, Audit of the SBAExpress and Community Express Loan Purchase and Liquidation Process,
    December 29, 2006.
4
    OIG Report 7-23, Audit of the Guarantee Purchase Process for Section 7(a) Loans at the National Guaranty
    Purchase Center, May 8, 2007.
                                                                                                                        4



           July 31, 2007, because it did not identify lender noncompliance with SBA
           loan origination, servicing, and/or liquidation requirements. 5

OFA, with assistance from the OCFO, prepares the Agency’s estimate of improper
payments for the 7(a) program. This estimate is based on an annual review of a
sample of guaranty loan purchases. The FY 2008 review for improper payments
was performed by review teams operating in three separate loan servicing centers,
including the National Guaranty Purchase Center and the Fresno and Little Rock
Commercial Loan Servicing Centers. These teams reviewed a sample of 186
loans, totaling $15.2 million, of the 13,022 7(a) loan guaranties purchased between
April 1, 2007 and March 31, 2008, totaling $869 million. Before calculating the
FY 2008 improper payment rate reported to OMB, OFA reviewed those loans
identified by the centers as having improper payments to determine which
improper payments should be reported.

RESULTS IN BRIEF

SBA’s estimate for FY 2008 significantly understated the level of improper
payments in the 7(a) program. SBA reported that improper payments were 0.53
percent of FY 2008 program outlays. In contrast, we estimated the improper
payment rate to be 27 percent, or approximately $234 million, of the $869 million
in loan guaranties purchased between April 1, 2007, and March 31, 2008. 6

We determined that all 30 purchased loans we reviewed had improper payments
totaling $680,548. For all 30 loans, outstanding ongoing guaranty fees due to
SBA (approximately $300 on average), were not offset against purchase amounts
paid to lenders. Additionally, 12 of the 30 loans lacked evidence to support that
lenders complied with SBA origination, servicing, and/or liquidation
requirements. In contrast, OFA reported improper payments of $4,468 on only 2
of the sampled loans. Loan reviews performed in the loan processing Centers
missed many of the deficiencies identified by our audit. A listing of the 30 loans
is provided in Appendix III.

In addition to the 30 sampled loans we reviewed, we found that improper
payments on three other loans reported by SBA’s National Guaranty Purchase
Center, totaling $1.6 million, were inappropriately overturned by OFA. Had these
improper payments not been overturned, the improper payment rate reported to
OMB would have been 10.75 percent rather than the 0.53 percent reported.
OFA’s justification for overturning the improper payment findings was inadequate

5
    OIG Report 9-08, Audit of the Liquidation Process at the National Guaranty Purchase Center, January 30, 2009.
6
    This estimate was based on the same statistical projection methodology used by SBA to report its rate of improper
    payments and reflects the point estimate of improper payments in the payment universe of $869 million. See
    Appendix II for additional projection information.
                                                                                   5



as it was based on insufficient information to correct the deficiencies and
inaccurate interpretations of SBA’s procedures.

OFA’s sampling design was also flawed because it employed attribute sampling
when it should have used variable sampling since the payment universe contained
divergent guaranty purchase amounts. Additionally, OFA, in coordination with
OCFO, did not properly apply the error rate in projecting the total value of
improper payments made in FY 2008. As a result, OFA’s projection was
statistically invalid. These errors occurred because OFA did not consult with a
statistician, as required, or obtain approval to deviate from OMB’s sampling
requirements.

Because our estimate of SBA’s FY 2008 improper payment rate for the 7(a)
program was so significant, it requires corrective action by the Agency. Although
SBA developed a plan to reduce improper payments, the plan had not been fully
implemented.

Finally, we found that OFA did not timely recover improper payments identified
during its FY 2007 and FY 2008 improper payment reviews, and had only
recovered about 1 percent of the improper payments identified in these 2 years.

We made several recommendations to the Associate Administrator for Capital
Access, including that he (1) recover $2.3 million of improper payments (i.e.,
$680,548 from the sample and $1.6 million from 3 other loans); (2) ensure that
complete and consistent reviews are performed; (3) consult with a statistician to
ensure variable sampling procedures are employed, precision requirements are
met, and projections are statistically valid; (4) fully implement the Agency’s
corrective action plan to reduce improper payments, and (5) establish recovery
time frames for improper payments identified by the centers during their improper
payment reviews.

We also recommended that the Acting Chief Financial Officer report the OIG’s
FY 2008 estimate of improper payments to OMB. Finally, we recommended that
the Chief of Staff delegate final approval of improper payment decisions to the
Office of Risk Management.

Management agreed or partially agreed with all of the recommendations made to
improve the improper payment review process. In addition, the Agency agreed
that recovery should be sought for some of the identified improper payments, but
did not specify agreement or disagreement for each loan, and suggested that
disputes be presented to the Office of Risk Management for final resolution.
                                                                                                                         6



The Office of Capital Access also agreed to implement its corrective action plan,
report the OIG’s FY 2008 improper payment estimate to OMB, and establish
recovery time frames. However, it did not agree to delegate final approval of
improper payment decisions to the Office of the Chief Financial Officer, as
originally recommended, but suggested that the Office of Risk Management be
responsible for resolving improper payment disputes. This alternative course of
action included an inappropriate threshold for Center and OFA disputes, and
therefore, did not fully address our recommendation.

RESULTS

OFA Significantly Underestimated the FY 2008 Improper Payment Rate

A review of 30 of the 186 loans sampled by SBA disclosed that it did not identify
all improper payments associated with these loans. SBA identified only 2
improper payments, totaling $4,468, for the 30 loans we sampled. In contrast, we
identified improper payments related to ongoing lender guaranty fees on all 30
loans, of which 12 evidenced lender compliance issues or SBA processing errors.7

         	 Outstanding Guaranty Fees. For all 30 sampled loans, we found that
            outstanding guaranty fees due to SBA (approximately $300 on average 8 )
            were not offset against the guaranty purchase amounts disbursed to
            lenders. On a monthly basis, SBA collects an ongoing guaranty fee from
            lenders based on the outstanding balance of the guaranteed portion of
            each loan. Upon loan default, however, the fees are not collected and
            continue to accrue. Therefore, at guaranty purchase, the unpaid guaranty
            fees must be offset against the purchase amounts disbursed to lenders.
            We found that these adjustments were not made for the 30 sampled loans,
            resulting in improper payments.

         	 Creditworthiness. Four of the early-defaulted loans in our sample were
            purchased without the required evidence for repayment ability and
            creditworthiness. 13 CFR 120.150 requires applicants to be creditworthy
            and loans to be so sound as to reasonably assure repayment, considering
            the character, reputation, and credit history of the borrower. Further,
            when credit decisions are delegated to lenders, they must use appropriate
            and generally accepted credit analysis procedures consistent with their
            non-SBA guaranteed commercial loans. If a lender’s credit analysis


7
    The 12 we identified included the two identified by OFA.
8
    While individual improper payments related to fees were relatively small, the cumulative effect is estimated to be
    over $3 million for the universe of 13,022 loans.
                                                                                                                     7



               demonstrates that the applicant lacks reasonable repayment ability, the
               loan request should be declined.

          	 Eligibility. In one case, SBA purchased a loan to a business
             demonstrating religious influence, which was not eligible for financing.
             SOP 50 10 (4), Loan Processing, dated December 1, 2000, specifically
             prohibits SBA financing to such businesses.

          	 Use of Proceeds. In two instances, loan proceeds were used to reimburse
             borrowers for expenses incurred up to 10 months prior to loan approval.
             SBA Form 1050, Settlement Sheet, states that proceeds may be used to
             reimburse borrowers for evidenced expenditures made after loan
             approval.

          	 Collateral Liquidation. Lenders on two loans did not conduct timely
             site visits, provide collateral lists, or secure collateral, as required. SOP
             50 51, Loan Liquidation and Acquired Property, dated April 20, 2005,
             requires SBA to repair or deny loans if collateral is missing or devalued
             as a result of a lender's failure to conduct a timely site visit or obtain a
             meaningful collateral inspection.

We also found that SBA made improper payments on 4 of the 30 sampled loans
because it did not identify that lenders (1) sold a loan after receiving SBA’s
guaranty purchase, or (2) charged a disallowed fee to the borrower. SBA also lost
one of its loan files, and did not reconcile loan transcripts for another loan, as
required.9

Lastly, the three Community Express loans in our sample did not demonstrate
evidence that borrowers received the required technical assistance. Under the
Community Express program, borrowers must receive pre- and post-loan closing
management and technical assistance. If the lender cannot provide documentation
showing technical assistance was provided or strongly encouraged, SBA may deny
liability on the guaranty in full or in part. However, SBA procedures in place
during the FY 2008 improper payment review period were unclear regarding the
documentation required from lenders to demonstrate that they met the technical
assistance requirements. As a result, SBA’s purchases of these loans were not
considered improper for this audit. In the future, however, SBA should ensure that
all Community Express loans meet the current SBA technical assistance
requirements and that the guaranty percentage is reduced to 50 percent 10 in
instances of noncompliance.

9
     SBA reported the related improper payments for these two loans to OMB. 

10
     This is the SBA guaranty share for regular SBAExpress loans, which do not have a technical assistance component. 

                                                                                   8



SBA Did Not Adequately Review Sampled Loans, Report All Identified
Improper Payments, or Comply with OMB Guidance for Its Sample Design
and Measurement Methodology

SBA Relied on Loan Review Processes that Did Not Adequately Detect Errors

We found deficiencies in the reviews conducted by all three SBA loan centers and
noted inconsistencies in the reviews of SBAExpress and Community Express
loans conducted by the Fresno and Little Rock Servicing Centers. For example,
the Fresno center did not identify any improper payments in the 6 loans in our
sample, while we found that 2 of the 6 loans, valued at $73,884, had material
improper payments totaling $34,747. We found that all of the sampled loans had
unpaid ongoing guaranty fees that were not offset against purchase amounts paid
to lenders even though the Quality Assurance Review (QAR) checklist required a
review of lender fees. Further, reviews for eligibility and collateral liquidation
were inadequate to identify improper payments because the QAR checklist did not
require a detailed review of all material areas of lender compliance.

In contrast, the Little Rock checklist generally covered the material areas of lender
compliance. Nevertheless, we found that credit analysis reviews were inadequate
to identify improper payments. Specifically, borrower creditworthiness was not
supported for three purchased early-defaulted loans. Additionally, the QAR
checklist did not require a review of lender ongoing guaranty fees.

Finally, SBA’s National Guaranty Purchase Center generally performed adequate
reviews using a detailed checklist covering all material areas of lender compliance.
The Center, however, did not identify unpaid ongoing guaranty fees for all loans
reviewed and missed material improper payments on one CAPLines loan and one
secondary market loan. The improper payment on the CAPLines loan involved
lender noncompliance with complex SBA disbursement requirements. The
improper payment on the secondary market loan was not identified because
Headquarters officials inappropriately directed the Center to limit its review to a
reconciliation of loan transcripts rather than performing a complete purchase
review. According to OMB officials, a full purchase review should have been
completed prior to the improper payment review.

OFA Did Not Report All Identified Improper Payments to OMB

We determined that 7 improper payments reported by the National Guaranty
Purchase Center were overturned by OFA. Four of the seven were overturned
primarily because SBA secured additional information from lenders after the
Center’s review, which showed lender compliance. However, the remaining three
were inappropriately overturned because OFA did not properly apply SBA’s
                                                                                      9



policies and procedures or OMB’s definition of an improper payment. These
loans were not included in the statistical sample for the audit, and therefore, did
not affect the OIG’s estimated improper payment rate. Nevertheless, had OFA
upheld the Center’s decisions on these three loans, the improper payment rate
reported to OMB for the 7(a) program would have been 10.75 percent rather than
the 0.53 percent reported.

Instead of holding lenders accountable for noncompliance with Agency
requirements and disclosing improper payments, OFA upheld the guaranty
purchase decisions on the three loans without adequate justification. OFA’s
rationale was based on information received from lenders that was not sufficient to
correct the deficiencies and inaccurate interpretations of SBA’s procedures.
Specifically:

   	 The National Guaranty Purchase Center recommended recovery of an
      improper payment because a lender did not provide evidence that credit
      card debt refinanced with SBA loan proceeds was used for legitimate
      business purposes, as required. OFA ignored this requirement and claimed
      the lender’s cash flow analysis demonstrated that the owner did not need to
      use business credit card debt for personal living expenses. Regardless of
      the cash flow sufficiency, the lender was required to provide evidence that
      the credit card debt was used for business purposes. Since the lender did
      not do so, SBA procedures and OMB guidance required that this guaranty
      purchase be treated as an improper payment for reporting and recovery
      purposes.

   	 The Center determined that another loan was ineligible for SBA financing
      because it was subject to an excessively restrictive license agreement.
      SBA’s Office of General Counsel (OGC) concurred, opining that lenders
      are required to verify the eligibility of each loan. OFA dismissed this
      decision, claiming that the lender relied on SBA’s approval of a previous
      loan made to the borrower that was also subject to the license agreement.
      However, we found that SBA was unaware of the license agreement when
      the first loan was approved. Therefore, based on the Center findings and
      OGC opinion, both loans were ineligible for SBA financing. The lender’s
      reliance on the previous loan approval and OFA’s overturning of the
      improper payment decision were inappropriate.

   	 The Center identified an improper payment of approximately $1.5 million
      because a lender failed to underwrite an early defaulted loan in a
      commercially prudent manner. The Center found that the lender did not (1)
      verify that a significant cash injection was made, (2) ensure the borrowers
      were properly licensed to operate the business, and (3) appropriately value
                                                                                                                 10



           the business. After obtaining additional information from the lender, OFA
           overturned this improper payment decision stating that all of the Center’s
           findings could be satisfactorily addressed except for the verification of
           $40,000 of equity injection, which it deemed immaterial. We determined
           that OFA inappropriately overturned the decision because the lender did not
           appropriately support repayment ability or ensure that the borrowers had
           adequate working capital to support the early business operations, as was
           deemed necessary in its credit analysis. Additionally, we found that (1) the
           lender’s business valuation was inappropriate for the type of assets being
           purchased and appeared to be overstated, (2) $240,000 of the $300,000
           equity injection was not verified as required, and (3) the primary owner of
           the business was not licensed in the state where the business was operating.
           OFA refuted each of the Center’s findings individually and did not consider
           the cumulative effect of the lender’s deficiencies on this early-defaulted
           loan, as required by SOP 50 51. As a result, OFA’s decision conflicted
           with SBA procedures.

OFA’s decision to overturn the three loans, demonstrates its unwillingness to hold
lenders accountable for noncompliance, which was brought to the attention of
SBA management in a previous OIG audit. 11 The lender advocacy role of OFA
and OCA conflicts with that of the National Guaranty Purchase Center, which is
responsible for timely processing guaranty purchase requests and ensuring lender
compliance with SBA’s rules and regulations. Therefore, allowing OFA to make
the final decision on which improper payments get reported compromises the
improper payment reporting process as OFA lacks the organizational
independence needed to maintain the integrity of the process. Removing this
function from OFA is essential to provide assurance that all correctly-identified
improper payments are reported.

OFA Did Not Comply with OMB Guidance for Its Sample Design and
Measurement Methodology

OMB Circular A-123 requires agencies to obtain a statistically valid estimate of
the annual amount of improper payments for programs that are most susceptible to
erroneous payments. Agencies must also consult with a statistician to ensure the
validity of their sample design, sample size, and measurement methodology. In
some cases, agencies may need to use more complex sample designs because their
universe contains divergent dollar amounts. Despite this requirement, OFA did
not use the appropriate sample design or measurement methodology for estimating
improper payments. It also did not consult with a statistician or obtain OMB
approval to deviate from requirements at any point during the review process.

11
     OIG Report 9-08, Audit of the Liquidation Process at the National Guaranty Purchase Center, January 30, 2009.
                                                                                11




In testing for improper payments, OFA employed attribute sampling, which is a
technique used to determine whether a characteristic exists in the population. This
methodology can be used to test whether a payment was improper, but it is
inappropriate for estimating the rate or value of improper payments. OFA should
have used variable sampling to derive its estimate of improper payments. Variable
sampling is generally used to predict a value for a given population. This
technique involves sampling a number of payments, computing the value of those
payments, and finally deriving the statistical projection of the value of those
payments in the population. Because OFA used attribute sampling to derive its
estimate of improper payments, its estimate did not meet the precision
requirements established in Appendix C of OMB Circular A-123.

Further, in making its projections, SBA combined data from different time
periods, using one time period for its sample error rate and another for the
population that the rate was applied against. Specifically, the error rate was
obtained from a sample of loans purchased between April 1, 2007, and
March 31, 2008, but was projected to the universe of loans purchased between
October 1, 2007 and September 30, 2008. Consequently, SBA’s projection
methodology was statistically invalid. The sampling and measurement
methodology flaws could have been avoided had OFA consulted with a
statistician. Instead, OFA’s sampling plan was developed by SBA officials who
had no statistical sampling expertise.

OFA Did Not Timely Recover Improper Payments

OMB Circular A-123 also requires SBA to report in its annual Performance and
Accountability Report to OMB its efforts to (1) recover the identified improper
payments, (2) implement corrective actions to reduce improper payments, and (3)
prevent recurrence.

SBA’s corrective action plan for reducing improper payments in the 7(a) program
states it will (1) identify, analyze, and communicate error patterns to the
reviewers; (2) revise policies and procedures and issue specific guidance where
necessary; (3) provide training and supplement center resources where possible;
and (4) implement a quality assurance review program to identify and mitigate
emerging patterns or potential problem areas that might result in future improper
payments.

For FY 2007, SBA established a target recovery rate of 85 percent of the total
reported improper payments, or $50,717. As of September 17, 2008; however,
SBA had recovered only $1,674, or 2.8 percent. When interviewed, OFA officials
could not explain the reasons for the delay in recovering the improper payments.
                                                                                12



In addition, SBA had not achieved the improper payment target recovery rate of
85 percent, or $76,441, for FY 2008. As of February 2, 2009, OFA had not
recovered any of these improper payments, which, according to an OFA official,
was due to a miscommunication regarding who was responsible for collection.

While the Agency’s corrective action plan for reducing improper payments in the
7(a) program is sufficient to track the causes of improper payments and to mitigate
similar improper payments, due to the low error rate identified by SBA, it has not
been fully implemented. Since we found that the improper payment rate is
significantly higher than reported, the corrective action plan must be fully
implemented in conjunction with our other recommendations to improve the
review processes and ensure that all improper payments are identified and
considered for corrective action.

RECOMMENDATIONS

We recommend that the Associate Administrator for Capital Access:

   1. Seek recovery of $2.3 million from lenders on the loans listed in 

      Appendices III and IV. 


   2. Revise checklists used by the Fresno and Little Rock Loan Servicing
      Centers and the National Guaranty Purchase Center to conduct improper
      payment reviews to include a review of all loan program requirements and
      lender ongoing guaranty fees to ensure that complete and consistent
      reviews are performed.

   3. Instruct the centers to offset ongoing guaranty fees due SBA at the time of
      guaranty purchase against purchase amounts or servicing fees paid to
      lenders.

   4. Ensure post purchase reviews are completed prior to the improper payment
      review of loans purchased from the secondary market.

   5. Ensure that all Community Express loans meet the current SBA technical
      assistance requirements and that the guaranty percentage is reduced to 50
      percent in instances of noncompliance.

   6. Require that a statistician be consulted when developing the sampling
      design and projection methodology to ensure that variable sampling
      procedures are employed, precision requirements are met, and projections
      are statistically valid as required by OMB guidance.
                                                                                 13



   7. Fully implement the corrective action plan reported in SBA’s FY 2008
      Performance and Accountability Report to reduce improper payments in
      the 7(a) Guaranty Loan Programs.

   8. Establish time frames for the recovery of improper payments identified by
      the centers during their improper payment reviews.

We recommend that the Acting Chief Financial Officer:

   9. Report the revised improper payment rate calculated by the OIG for FY
      2008 to OMB.

We recommend that the Chief of Staff:

   10. Delegate final approval of all disputed denial, repair, and improper
       payment decisions to the Office of Risk Management, rather than OFA, to
       enhance independence of the purchase review process and accuracy of the
       improper payment estimate.

AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
RESPONSE

On April 29, 2009, we provided a draft of this report to SBA for comment. On
June 17, 2009, SBA submitted its formal comments, which are contained in their
entirety in Appendix V. Management agreed with recommendations 2, 5, 6, 7, and
9; partially agreed with recommendations 1, 3, and 4; and disagreed with
recommendation 10, but proposed an alternative course of action, which did not
fully address the recommendation. It appears that management misunderstood the
intent of recommendation 8 and as a result, its comments were non-responsive.
Specific management comments on the report findings and recommendations, and
our evaluation of them, are summarized below.

Management Comments

Comment 1

Management stated that the audit contained recommendations that would improve
the improper payment review process, but expressed concern about the
classification of all 7(a) guaranty purchases as improper due to the unpaid lender
servicing fees on purchased loans. While management agreed that SBA should
have a process to collect unpaid annual guaranty fees, it disagreed that a purchase
that was otherwise proper should be deemed improper because of an outstanding
fee due SBA.
                                                                                                               14




Management stated that the OIG conclusion assumes that SBA must exercise a
right of offset with respect to the unpaid fees and that by not doing so, an improper
payment was made. Management claimed that SBA is not required to exercise its
right to offset to collect debts, and cannot for loans that have been sold in the
secondary market. As a result, management believes that the collection of
outstanding fees and the evaluation of purchase disbursements under the Improper
Payments Information Act of 2002 are two separate issues.

OIG Response

We disagree that a purchase can be deemed proper if unpaid guaranty fees have
not been offset against the amount paid to the lender. Appendix C of OMB
Circular A-123, Requirements for Effective Measurement and Remediation of
Improper Payments, states that an improper payment includes any payment that
was made in the incorrect amount. Any payment made to an SBA lender in excess
of what is owed is an overpayment, and therefore, improper under OMB guidance.

13 CFR § 120.220(f) requires lenders to pay SBA an annual service fee equal to a
designated percentage of the outstanding balance of the guaranteed portion of each
loan. SBA has implemented the collection of this fee from lenders via its Fiscal
and Transfer Agent (FTA) on a monthly basis in order to correspond with its 1502
reporting process. SOP 50 10 (5) states that by the third calendar day of each
month, lenders must remit to the FTA either the payment owed (including the
ongoing guaranty fee) if the guaranteed portion has been sold in the secondary
market, or the ongoing guaranty fee if the guaranteed portion has not been sold.
Upon loan default, however, ongoing guaranty fees are not paid by lenders and
continue to accrue until guaranty purchase.

While there has been some confusion within the Agency as to who is responsible
for calculating and collecting the outstanding fees, it has always been
management’s intent to exercise a right of offset against purchase amounts for
both regular and secondary market loans. In fact, when this issue was brought to
the attention of Agency officials during a previous audit, 12 they were surprised to
learn that these offsets were not taking place. Additionally, while not being used,
SBA’s Guaranty Purchase Tracking System contains a field to deduct unpaid
lender fees from the purchase amounts.

Further, when a loan is purchased from the secondary market, SBA pays the
secondary market investor its guaranty amount, and separately pays the lender its
servicing fees. It is these lender servicing fees that can be offset by those owed to

12
     OIG Report 8-09, Audit of Loan Classifications and Overpayments on Secondary Market Loans, January 11, 2008.
                                                                                  15



SBA at the time of purchase. As a result, we disagree with management’s
statement that it cannot offset unpaid fees against the purchase of loans that have
been sold on the secondary market. In fact, in response to a recommendation
made in our previous audit, SBA agreed that unpaid ongoing guaranty fees could
be offset against the servicing fees paid directly to the lender at the time of
purchase. Therefore, we maintain our position that all 30 purchased loans we
reviewed had improper payments.

Recommendation 1

Management Comments

Management agreed to seek recovery on the purchases it agreed were classified as
improper, and stated it would provide a full discussion of those it disagrees with
after a review of the files is completed. Management suggested that
disagreements between OFA and OIG be presented to the Office of Risk
Management for review and final resolution.

OIG Response

Management’s comments were not fully responsive to this recommendation.
During March and April 2009, we provided SBA management detailed deficiency
summaries for the 30 loans we reviewed. We also conducted meetings with
Center and OFA officials to discuss our findings, and provided a 3-week extension
for the Agency’s response. As a result, we believe management was provided
sufficient time to fully respond to this recommendation, and it is unclear why
management could not provide a full discussion of its agreement or disagreement
to the individual identified improper payments in its response to our draft report.
Additionally, management needs to provide a target date for final action to address
this recommendation.

Recommendation 2

Management Comments

Management agreed with the recommendation and stated it would revise the
review checklists by September 30, 2009.

OIG Response

Management’s comments were responsive to the recommendation.
                                                                                   16



Recommendation 3

Management Comments

Management agreed with this recommendation for loans that were not sold on the
secondary market and suggested that modifications be made to Agency systems so
that unpaid fees can be calculated and deducted automatically from purchase
disbursements. Management stated that it would implement these changes by June
30, 2010. In the meantime, for purchases having an SBA-guaranteed principal
amount over $250,000, management stated it will determine its authority under
existing regulations to calculate manually and deduct the unpaid fee from the
purchase. With regard to loans sold on the secondary market, management stated
it cannot implement these changes since lenders do not receive any payment for
the purchase.

OIG Response

We commend the Agency for recognizing the importance of this function and
offering the necessary adjustments needed to collect outstanding fees. However,
we disagree that this recommendation cannot be implemented for loans sold on the
secondary market. When a loan is purchased from the secondary market, SBA
pays the secondary market investor its guaranty amount, and separately pays the
lender its servicing fees. It is these lender servicing fees that can be offset by any
fees owed to SBA at the time of purchase. In response to a previous audit
recommendation, SBA agreed to this practice. Furthermore, the June 30, 2010
target date for implementation is unacceptable as management previously agreed
to implement a similar process by September 30, 2009.

We acknowledge and appreciate the Agency’s effort to implement an interim
process for the calculation and deduction of unpaid fees from purchase amounts
for those loans with guaranteed principal amounts over $250,000. However, we
believe this threshold is too high as 90 percent of SBA’s 7(a) purchases fall below
this amount. Consequently, we consider management’s comments to be partially
responsive to the recommendation.

Recommendation 4

Management Comments

Management stated that it agreed with the recommendation to the extent that the
improper payment review for secondary market purchases is limited to a review of
the disbursement to the secondary market holder. Management stated that its
obligation to the secondary market holder is an independent contractual obligation
                                                                                     17



and cannot be considered an improper payment even if SBA later determines it has
grounds for recovery from the lender.

OIG Response

Management’s comments were not fully responsive to the recommendation. SBA
did not consult with OMB before directing the centers to limit their improper
payment reviews on secondary market loans to a reconciliation of loan transcripts,
rather than performing complete post-purchase reviews. SBA claimed that
because of its contractual obligation to the secondary market investor, SBA’s
payment could not be considered improper even if it was later determined that
SBA had grounds for recovery from the lender. This interpretation of the
improper payment guidance is flawed as it allows the Agency to ignore a
significant amount of potential improper purchases.

During our audit, we provided OMB with an explanation of SBA’s review process
for secondary market loans and its contractual obligation to secondary market
investors. OMB’s position is that that a full post-purchase review should be
completed prior to the improper payment review because it can reasonably be
expected to identify a significant amount of payment errors. Therefore, if SBA
took timely action to perform a post-purchase review and identified and recovered
the payment error, the purchase would not be considered improper. In contrast, if
SBA did not perform a timely post-purchase review or its review was deficient in
identifying lender noncompliance, the purchase from the secondary market would
be deemed improper.

Management needs to provide a revised response and a target date for final action
to sufficiently address this recommendation.

Recommendation 5

Management Comments

Management stated that it agreed with this recommendation as long as the
technical assistance requirements required at the time of loan approval are applied.
Management stated that these requirements were made increasingly clear over
time, and that retroactive application of technical assistance instructions on lenders
is inappropriate.

OIG Response

Management’s comments were responsive to the recommendation, but a target
date for final action is needed to sufficiently address this recommendation. It is
                                                                                  18



important to note, however, that pre and post-closing technical assistance has been
a requirement of the SBA Community Express program since August 1, 2000.
None of the loans we reviewed exhibited support that lenders provided, arranged,
and, when necessary, paid for post-closing technical assistance to borrowers.
Further, SBA had not issued clear guidance on its technical assistance
requirements to lenders until September 16, 2008.

Recommendation 6

Management Comments

Management agreed with this recommendation and is making arrangements to
retain a statistician.

OIG Response

Management’s comments are responsive to the recommendation, and needs to
provide a target date for final action to sufficiently address this recommendation.

Recommendation 7

Management Comments

Management agreed with this recommendation, and stated it has been
implementing its corrective action plan on an ongoing basis. Management
provided an overview of the corrective action plan and a status of current efforts.

OIG Response

Management’s comments were responsive to the recommendation. However, the
Quality Assurance Review (QAR) program must be fully implemented before this
recommendation can be closed. Management also needs to provide a target date
for final action to sufficiently address this recommendation.

Recommendation 8

Management Comments

Management agreed with this recommendation, and stated that purchases
identified as improper by the OIG and agreed to by the Office of Capital Access
will be recovered by September 30, 2009 or referred to the Office of General
Counsel.
                                                                                  19



OIG Response

Management misinterpreted our recommendation and believed it referred only to
those improper payments identified in this audit. The intent of our
recommendation was for SBA to establish timeframes for the recovery of all
improper payments identified by the centers during their improper payment
reviews. Our recommendation has been revised to reflect this intent. Resolution
of this recommendation will occur during the audit resolution process.
Management also needs to provide a target date for final action to sufficiently
address this recommendation.

Recommendation 9

Management Comments

Management agreed to work with OMB to clarify its guidance on the Improper
Payments Information Act. After clarification is received, SBA will issue the
appropriate disclosure for the FY 2008 estimate. This will occur in November
2009.

OIG Response

Management’s comments were responsive to the recommendation.

Recommendation 10

Management Comments

Management disagreed and offered an alternative action for this recommendation.
Management believes that delegating final approval of improper payment
decisions to the Office of the Chief Financial Officer (OCFO) would be
inconsistent with its primary organizational responsibilities and resources.
Management suggested an alternative resolution process when OFA disagrees
with an OIG recommendation or OFA disagrees with a purchase center’s
recommendation involving an amount in excess of $250,000. In such instances,
the Office of Risk Management (ORM) will review the opinions of each party, and
within 30 to 60 days, cast a tie-breaking vote.

OIG Response

The alternative action proposed by management is an important step in improving
the independence of the improper payment review process. However, this
resolution process should apply to all repair and denial disputes arising during the
                                                                                20


7(a) guaranty purchase process and OIG audits, in addition to those arising in the
improper payment review process. Furthermore, the materiality threshold of
$250,000 proposed by management for Center and OFA disputes would exclude
the majority of repair and denial amounts recommended by the centers. We
believe a more appropriate threshold would be $50,000. Our recommendation has
been revised to reflect the alternative resolution process and to incorporate all
disputed denial and repair decisions. However, management needs to establish a
more appropriate threshold and provide a target date to sufficiently address this
recommendation.

ACTIONS REQUIRED

Because your comments did not fully address recommendations 1, 3, 4, and 8, we
request that you provide a written response providing additional details for
implementing the recommendations within 2 weeks from issuance of this report.
Furthermore, forms 1824 must be provided for all recommendations in our report,
and target dates for final action must be provided for recommendations 1, 4, 6, 7,
8, and 10. If a timely response is not received, these recommendations will be
pursued through the audit resolution process.

We appreciate the courtesies and cooperation of the Office of Capital Access and
Office of the Chief Financial Officer during this audit. If you have any questions
concerning this report, please call me at (202) 205-[FOIA ex. 2] or Pamela Steele-
Nelson, Acting Director, Credit Programs Group, at (202) 205-[FOIA ex. 2].
                                                                                21


APPENDIX I. SCOPE AND METHODOLOGY

The audit objectives were to determine (1) whether the Small Business
Administration’s (SBA) FY 2008 estimate of the improper payment rate for the
7(a) program was accurate, (2) if the estimate was not accurate, the reasons why,
and (3) if recovery goals for FY 2007 and FY 2008 were met.

To satisfy the audit objectives, we analyzed the Agency’s sampling procedure,
error rate calculation, and statistical projection methodology. We also consulted
Office of Management and Budget (OMB) officials to determine how the
improper payment definition specifically applies to the 7(a) program. SBA
conducted improper payment reviews on a sample of 186 7(a) guaranty loans
purchased between March 31, 2007 and April 1, 2008 to determine its FY 2008
improper payment rate.

We tested the accuracy of the Agency’s estimate by reviewing a random sample of
30 of the 186 loans reviewed by the Agency. Our analysis involved testing all 30
loans for lender noncompliance with SBA origination, servicing, and/or
liquidation requirements and comparing our results to those reported by SBA. In
instances where deficiencies were noted, we interviewed Office of Financial
Program Operations (OFPO) and Office of Financial Assistance (OFA) officials
regarding their assessment and review approach. Additionally, we reviewed each
loan to determine whether ongoing lender guaranty fees due SBA were offset
against guaranty purchase amounts.

We also reviewed 7 loans where OFA had overturned the National Guaranty
Purchase Center’s improper payment decisions to determine whether OFA’s
reversal of these decisions was appropriate. These 7 loans were not part of our
statistical sample, but were part of the 186 purchased loan guaranties reviewed by
OFA. Finally, we assessed SBA’s improper payment recovery efforts for FY 2007
and FY 2008 by reviewing SBA’s accounting records and interviewing OFA
officials.

We tested the reliability of the FY 2008 7(a) purchase data in the Loan Accounting
System (LAS) that was used by SBA to define the loan universe by verifying that
all disbursement dates fell within the FY 2008 time frame. We also compared
disbursement amounts reported in LAS to amounts reported in SBA’s Guaranty
Purchase Tracking System to ensure that they were identical.

The audit was conducted between August 2008 and March 2009 in accordance
with Government Auditing Standards prescribed by the Comptroller General of the
United States, and included such tests considered necessary to provide reasonable
assurance of detecting abuse or illegal acts.
                                                                                                                      22



APPENDIX II. STATISTICAL SAMPLING METHODOLOGY

OFA randomly selected a statistical sample of 186 purchased 7(a) loans from a
population universe of 13,022 purchases totaling approximately $869 million to
estimate its FY 2008 improper payment rate. From OFA’s sample of 186 loans,
which totaled approximately $15 million, we randomly selected a statistical
sample of 30 loans (totaling $2.5 million), to estimate our population values. In
statistical sampling, the estimate of attributes in the population universe has a
measurable precision or sampling error. The precision is a measure of the
expected difference between the value found in the sample and the value of the
same characteristics that would have been found if a 100-percent review had been
completed using the same techniques.

We calculated the population point estimates and the related lower limits for the
selected attributes, using the Defense Contract Audit Agency’s “EZ Quant”
software program, at a 90-percent confidence level. Projecting our sample results
to the universe of approximately $869 million in loan disbursements, we estimated
SBA’s FY 2008 improper payment rate to be approximately 27 percent, or
approximately $234 million. The table below shows our calculation for the value
and rate of FY 2008 improper payments.


         OIG CALCULATIONS OF SBA’S FY 2008 IMPROPER PAYMENTS

                                   Occurrence in                                              Lower Limit at
                                                               Population Point
                                   Sample of 30                                                90-Percent
                                                                  Estimate
                                      Loans                                                    Confidence

        Number                            30                        13,022                        12,058
      Dollar value                     $680,548                  $233,638,035                  $31,213,702 13
      $ Error Rate                      26.89%                     26.89%                         3.59%




13
     The lower limit dollar value projection was computed using the Difference method rather than the Ratio method.
                                                                                               23



APPENDIX III. IMPROPER PAYMENTS ON 30 SAMPLED LOANS 


 Loan Number          Payment           Improper         Questioned Costs     Deficiency Summary
                      Amount         Payment Amount
  [FOIA ex. 2]           $456,426           $456,426              $456,426           A,C,F
  [FOIA ex. 2]              $9,678            $9,678                $9,678           A,E,F
  [FOIA ex. 2]             $19,885           $19,885               $19,885           D,E,F
  [FOIA ex. 2]             $37,007              $165                  $165             F
  [FOIA ex. 2]           $125,425           $118,883              $118,883            C,F
  [FOIA ex. 2]             $38,763              $199                  $199             F
  [FOIA ex. 2]              $9,921               $35                   $35             F
  [FOIA ex. 2]            $288,230              $523                $5,523             F
  [FOIA ex. 2]             $25,636              $227                  $227             F
  [FOIA ex. 2]              $2,919                $8                    $8             F
  [FOIA ex. 2]            $476,712            $1,803                $1,803            E,F
  [FOIA ex. 2]              $3,672               $25                   $25             F
  [FOIA ex. 2]           $216,996               $100                  $100             F
  [FOIA ex. 2]              $9,619               $35                   $35             F
  [FOIA ex. 2]              $7,195               $63                   $63             F
  [FOIA ex. 2]              $2,236                $3                    $3             F
  [FOIA ex. 2]             $12,619               $40                   $40             F
  [FOIA ex. 2]             $15,271               $85                   $85             F
  [FOIA ex. 2]            $144,883              $214                  $214             F
  [FOIA ex. 2]             $14,540           $14,540               $14,540            E,F
  [FOIA ex. 2]              $2,321            $2,321                    $6            E,F
  [FOIA ex. 2]             $25,623              $116                  $116             F
  [FOIA ex. 2]             $68,704           $29,567               $29,567            D,F
  [FOIA ex. 2]              $5,180            $5,180                $5,180            B,F
  [FOIA ex. 2]              $5,180            $5,180                $5,180           A,E,F
  [FOIA ex. 2]             $38,856              $155                  $155             F
  [FOIA ex. 2]              $8,753                $8                    $8             F
  [FOIA ex. 2]            $393,901              $998                 -$998            E,F
  [FOIA ex. 2]             $12,563           $12,563               $12,563            A,F
  [FOIA ex. 2]             $52,296            $1,330                $1,330             F
     Totals             $2,531,010          $680,548              $681,237

Deficiency Type Legend:

    A.	 Creditworthiness
    B.	 Eligibility
    C.	 Use of Proceeds
    D.	 Collateral Liquidation
    E.	 Miscellaneous (Underpayment to Secondary Market, Loan Sold After Receiving Guaranty,
        Disallowed Lender Fees, or Incomplete Documentation)
    F.	 Ongoing Lender Fees
                                                                                           24


APPENDIX IV. IMPROPER PAYMENTS ON OVERTURNED LOANS 


 Loan Number            Payment           Improper       Questioned Costs   Deficiency Summary
                        Amount         Payment Amount
  [FOIA ex. 2]               $25,502           $25,502            $25,502           B
  [FOIA ex. 2]              $189,229           $90,252            $90,252           C
  [FOIA ex. 2]            $1,464,279        $1,464,279         $1,464,279        A,B,D,E
     Totals               $1,679,010        $1,580,033         $1,580,033

Deficiency Type Legend:

    A.   Creditworthiness
    B.   Eligibility
    C.   Use of Proceeds
    D.   Collateral Liquidation
    E.   Equity Injection
26

27

28

29

30
